No. 20-1501
IN THE

Supreme Court of the United States
ROMAN CATHOLIC DIOCESE OF ALBANY, et al.
Petitioners,
v.
LINDA A. LACEWELL, Superintendent,
New York Department of Financial Services, et al.
Respondents.
CERTIFICATE OF SERVICE
Oren L. Zeve, a member of the bar of this Court, hereby certifies that, on August 23,
2021, I caused to be served (i) three paper copies of the accompaning Brief in
Opposition by overnight delivery by commercial carrier in compliance with U.S.
Supreme Court Rule 29.3 and (ii) one portable document format copy by electronic
mail to the addresses listed below:
Counsel for Petitioner
Noel John Francisco
Jones Day
51 Louisiana Avenue, NW
Washington, DC 20001
(202) 879-3939
njfrancisco@jonesday.com
All parties required to be served have been served.
Executed August 23, 2021,

.

/s/ Oren L. Zeve
.
Oren L. Zeve
Managing Assistant Solicitor General
New York Office of the Attorney General
28 Liberty Street
New York, New York 10005

